09/23/2020 "See News Release 034 for any Concurrences and/or Dissents."

frjSuprrmr Court of
STATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION & DEVELOPMENT

of ^awtstaua
NO.2020-C-00528

VS.
LARRY E. CLARK, ET UX.
C/W

L & M HAIR CARE PRODUCTS, INC.
VS.
STATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION & DEVELOPMENT

IN RE: Larry E. Clark - Applicant Defendant; Applying For Writ Of Certiorari,
Parish of Caddo, 1st Judicial District Court Number(s) 325511, 325512, 328772 and
363679, Court of Appeal, Second Circuit, Number(s) 53,197-CA; 53,198-CA; 53199-CA; 53,200-CA;

September 23, 2020
Writ application denied.
JTG
JLW
JDH
SJC
WJC
JHB

Supreme Court of Louisiana
September 23, 2020
Clerk of Court
For the Court

EXHIBIT

i_G

Judgment rendered January 15, 2020.
Application for rehearing may be Hied
within the delay allowed by Art. 2166,
La. C.C.P.

No. 53,197-CA
No. 53,198-CA
No. 53,199-CA
No. 53,200-CA
(Consolidated Cases)
COURT OF APPEAL
SECOND CIRCUIT
STATE OF LOUISIANA

* * * * *

yf

No. 53,197-CA

No. 53,198-CA

STATE OF LOUISIANA
DEPARTMENT OF
TRANSPORTATION &
DEVELOPMENT

STATE OF LOUISIANA
DEPARTMENT OF
TRANSPORTATION &
DEVELOPMENT

Plaintiff-Appellee

Plaintiff-Appellee

versus

versus

LARRY E. CLARK, ET UX

LARRY E. CLARK, ET UX

Defendant-Appellant

Defendant-Appellant

No. 53,199-CA

No. 53,200-CA

STATE OF LOUISIANA
DEPARTMENT OF
TRANSPORTATION &
DEVELOPMENT

L & M HAIR CARE PRODUCTS,
INC.
Plaintiff-Appellant
versus

Plaintiff-Appellee
versus

STATE OF LOUISIANA
DEPARTMENT OF
TRANSPORTATION &
DEVELOPMENT

LARRY E. CLARK, ET UX
Defendant-Appellant

Defendant-Appellee

* * * *

Appealed from the
First Judicial District Court for the
Parish of Caddo, Louisiana
Trial Court Nos. 325511,325512, 328772 and 363679
Honorable Ramon Lafitte, Judge
* * * * *

LARRY E. CLARK

Appellant
In Proper Person

CHARLES DAVID McBRIDE
ANDREW GATES BARRY
TERRENCE J. DONAHUE, JR.

Counsel for Appellee

* * * * *

Before STEPHENS, McCALLUM, and THOMPSON, JJ.

McCALLUM, J.
In 1986, Ronald Reagan was President of the United States, Margaret
Thatcher was Prime Minister of the United Kingdom, the Berlin Wall
separated East Berlin from West Berlin, rotary dial telephones were still in
common usage, and the State of Louisiana, through the Department of
Transportation and Development, began expropriation proceedings against
Larry E. Clark and his wife as the owners of three lots of land in Shreveport,
Louisiana, needed for construction of 1-49. President Reagan and Prime
Minister Thatcher have passed away, the Berlin Wall has long since fallen,
and rotary dial telephones are extinct as practical options for
communication. However, the litigation bom of the State’s expropriation of
the Clarks’ property lives on.
Before us is a pro se appeal by Larry E. Clark and his wife
(hereinafter collectively referred to as “Clark”), challenging three
judgments. The appellee is the State of Louisiana, through the Department
of Transportation and Development (“the State”). Clark and their
corporation, L & M Hair Care Products, Inc. (“L&M”), are seeking
nullification of a previous joint stipulation agreement and judgments dating
back to the distant origins of this matter. Clark argues that the trial court
erred when it granted a peremptory exception of res judicata and dismissed
the petitions to nullify. Clark argues that the court thereafter erred in
denying a motion for new trial. Clark finally argues that the court erred
when it denied relief in relation to Clark’s ex parte motion. In that ex parte
motion, Clark asked the trial court to order the State to refile and start afresh
the expropriations. As detailed below, Clark asks this Court to reverse the
trial court, nullify the joint stipulation agreement, and allow continued

progress to attempt to nullify and overturn the sundry decisions made during
the preceding three decades.
We note that Clark has filed his brief pro se. One of the consolidated
cases in this matter, however, involves L&M, not Clark. Although we have
concerns as to the legal capacity of Clark to represent or argue on behalf of
L&M, we will liberally construe the Clark briefs and appeals. Therefore , we
will address all issues regarding Clark and L&M, including the
constitutional and federal civil rights arguments made by Clark. For the
reasons given below, we affirm the trial court on all issues.
HISTORY
This case has its origins in three separate expropriation proceedings
commenced by the State of Louisiana nearly three and a half decades ago.
In 1986, the State sought to expropriate land from Clark for the construction
of 1-49. The three suits were consolidated and set for trial. Prior to trial,
Clark and the State entered into a joint stipulated agreement. That
agreement resolved the issue regarding the taking of the three lots of land
and preserved only one issue for trial, the amount of compensation for the
relocation and loss of the uniqueness of the L&M location. L&M was a
lessee of a building that existed on the property.
The trial court found that Clark was entitled to compensation for the
loss. The trial court awarded Clark an additional $191,781.00 above the
stipulated agreement, plus other costs. It signed a judgment in accordance
with its ruling.
The State appealed that decision. This Court found in favor of the
State, reduced the total award, and reversed the portion of the award related
to L&M. This Court held that because L&M was not a party to the suit, the
2

award for costs and losses associated with L&M was improper.
Subsequently, L&M filed separately to recover its damages.
In that succeeding suit, the trial court awarded L&M the same amount
as it had in the previous ruling that had been reversed by this Court. The
State again appealed. However, before it was submitted, L&M and the State
reached an agreement to vacate the trial court ruling, withdraw the appeal
and remand the case to the trial court to reconsider the issue anew. This
Court allowed the agreement, rescinded the judgment and remanded.
Thereafter, L&M amended its petition to include new allegations and
claims against the State. For the new claims, the State filed an exception of
res judicata. The trial court ruled in favor of the State, dismissed the new
claims, and set the remaining, original issue for trial. Prior to trial, Clark
directed counsel for L&M not to comply with the trial court’s order to file a
pretrial order.
On the day of the trial, Clark maintained his directive to his lawyers.
With no pretrial order filed, Clark’s refusal to move forward with the trial,
and after multiple warnings given by the judge, the trial court dismissed all
of L&M’s claims with prejudice. We note that Clark even stated that he was
okay with the trial court dismissing his claims. On appeal, this Court
affirmed the trial court. L&M did not appeal that opinion.
Clark and L&M then started filing multiple suits, as detailed below, in
various state and federal courts. Those decisions ultimately led to a clear
and lengthy history of adverse outcomes for Clark and L&M. Those cases
reinforce our position that the trial court was correct in determining that res
judicata precludes Clark and L&M’s attempt to nullify the joint stipulations
and previous court rulings and opinions.
3

DISCUSSION
Res judicata, taken from Latin, means “a matter judged.” At the heart
of the doctrine of res judicata are the desirable ideals of finality of judgment
and stability of law. A surplus benefit to res judicata is judicial economy. It
is necessary to safeguard the public’s confidence in the legal system as well
as to guarantee the efficient use ofjudicial resources. Res judicata allows
the public the ability to make future plans and take actions based on the final
judgments made by courts. By ensuring that matters that have already been
adjudicated are final and resolved, res judicata shields litigants from the
court system being used as a vehicle of harassment through the costs and
vexation of multiple lawsuits. See Allen v McCurry, 449 U.S. 90, 94, 101 S.
Ct. 411 (1980). It further safeguards the court system from a burdensome
depletion of resources that would be caused by the proliferation of frivolous
lawsuits that have already been adjudicated to finality.
Some incorrectly argue that res judicata is extreme, in that it deprives
a litigant of their day in court. Such an argument could not be further from
the truth. “Res judicata forecloses both the litigation of matters that have not
been litigated but should have been raised in the earlier suit (claim
preclusion) and matters previously litigated and decided (issue preclusion).”
Priority Nurse Staffing, Inc. v. Tanshi, LLC, 52,463 (La. App. 2 Cir.
2/27/19), 265 So. 3d 1177, 1182; Alpine Meadows, L.C. v. Winkler, 49,490
(La. App. 2 Cir. 12/10/14), 154 So.3d 747, writ denied, 2015-0292 (La.
04/24/15), 169 So. 3d 357. Therefore, at the heart of res judicata is the
principle that the litigant involved either failed to properly raise a now
precluded issue in the first lawsuit or the litigant in fact had a full trial, yet

4

an undesirable outcome. Thus, res judicata starts with the premise that the
litigant, in fact, has already had his or her day in court.
It must be remembered that res judicata is designed to preclude
subsequent, redundant litigation. If we allow parties to litigate a second time
that which is already final merely because of their failure in previous suits or
their aversion for prior outcomes of the same issues, we would be endorsing
the idea that final judgments are meaningless. See Peter Wilbert Arbour,
The Louisiana Concept of Res Judicata, 34 La. L. Rev. 763 (1974).
“The res judicata effect of a prior judgment is a question of law that is
reviewed de novo bn appeal.” Priority Nurse Staffing, Inc., 265 So. 3d at
1182; City ofBastrop v. Harris, 50,727 (La. App. 2d Cir. 6/22/16), 198 So.
3d 163. The scales ofjustice are weighted heavily against the appellants in
the case before us. Not including the countless state and federal district
courts that have tried and decided matters connected with the issues
presented before us now, Clark sought and received previous appellate
opinions in eleven different proceedings. Those decisions include opinions
and considerations from several different courts including the Supreme
Court of the United States, the Louisiana Supreme Court, the United States
Court of Appeals, Fifth Circuit, the Louisiana Court of Appeal, First Circuit,
and this Court.

,

In 1989, this Court heard its first appeal of this matter. See State,
Dept, of Transp. & Dev. v. Clark, 548 So. 2d 365 (La. App. 2 Cir. 7/23/89),
writ denied, 552 So. 2d 395 (La. 1989). At issue was the state’s appeal of
the trial court’s award in excess of the stipulated value of the property. Id.
t

This Court reversed the trial court’s award, limiting it to the stipulated value.
Id. It further distinguished the rights of Clark as separate from the rights of
5

L&M. Id. It reversed the trial court’s award of any damages associated with
L&M because it was not a party to the suit. Id. The Louisiana Supreme
Court denied writs.
In 1993, this Court heard its second appeal of this matter. See L&M
Hair Care Products, Inc. v. State, Dept, of Transp. & Dev., 622 So. 2d 1194
(La. App. 2 Cir. 7/18/93), writ denied, 629 So. 2d 1126 (La. 1993). At issue
was an appeal by the State of the trial court’s denial of its exception of
prescription against L&M. Id In that matter, L&M had now asserted its
separate action and the state filed an exception based on L&M’s cause of
action being prescribed. Id. The trial court denied the exception and this
Court affirmed. Id. The Louisiana Supreme Court denied writs.
In 1997, this Court heard its third appeal of this matter. See L&M
Hair Products, Inc. v. State, Dept, of Tramp. & Dev., 29,998 (La. App. 2
Cir. 12/10/97), 704 So. 2d 415. At issue was L&M’s appeal of the trial
court’s dismissal with prejudice of all L&M and Clark claims. Id. Clark, as
both intervenor and as the president of L&M, refused to allow his and
L&M’s attorneys to file pretrial orders, despite the trial court’s direction to
do so. Id. Clark further refused to participate in the trial scheduled to
commence that day. Id. The trial court dismissed all the claims with
prejudice. Id. This Court affirmed the trial court’s decision. Id. Neither
Clark nor L&M appealed that decision, making it a final judgment.
In February of 1999, this Court heard its fourth appeal regarding
issues related to this matter. See Clark v. Mangham, Hardy, Rolfs & Abadie,
30,471 (La. App. 2 Cir. 2/24/99), 733 So. 2d 43. At issue was an appeal by
Clark and L&M of the trial court sustaining an exception of no cause of
action filed by the defendant law firm. Id. Clark and L&M had sued their
6

previous law firm for malpractice. Id. They had also filed a motion to
recuse the trial judge, which another judge of the district court denied. Id.
This Court affirmed the trial court on all issues. Id. Clark and L&M did not
apply for writs.
In June of 1999, the United States Court of Appeals, Fifth Circuit,
heard its first appeal related to this matter. See Clark v. Louisiana ex. rel.
La. Dept, of Tramp. & Dev., 184 F. 3d 816 (5th Cir. 1999). In the United
States District Court for the Western District of Louisiana, Clark and L&M
had filed suit against the State and numerous state and local officials. Id.
On appeal, m an unpublished opinion, the Fifth Circuit Court of Appeals
found that it lacked appellate jurisdiction because the record showed that no
federal judgment had been entered in the case at the district court. Id. The
appellate court further cautioned Clark that any additional appeals filed
would invite the imposition of sanctions. Id.
Clark did not heed the warnings of the federal appellate court. Later
in June of 1999, the United States Court of Appeals, Fifth Circuit, in an
unpublished dismissal without opinion, dismissed another appeal by Clark.
See Clark v. Pena, 189 F. 3d 467 (5th Cir. 1999). That appeal was in
relation to a separate federal suit by Clark and L&M against Federico Pena,
the United States Secretary of Transportation. Id. Thereafter, but related to
the dismissal by the federal appellate court, in August of 1999, the federal
appellate court issued an unreported order citing its assessment of sanctions
against Clark. See Clark v. Pena, 1999 WL 34844548 (5th Cir. 1999). It
approved and imposed $13,025.20 in sanctions against Clark. Id.
In 2008, the Court of Appeal of Louisiana, First Circuit, heard its first
appeal related to this matter. See Clark v. La. Dept, of Transp. & Dev.,
7

2007-1364 (La. App. 1 Cir. 5/2/08), 2008 WL 2065248, writ denied, 20081549 (La. 10/10/08), 993 So. 2d 1286. That appeal and the subsequent,
unpublished opinion by the court is one of which we take particular note. At
issue were the same issues that now sit before us. Id. After recounting the
numerous, preceding opinions by this Court and the rulings and judgments
of the First Judicial District Court in Caddo Parish, the court detailed the
heart of the case before it as follows:
Thereafter, the Clarks and L & M filed several lawsuits in state
and federal court seeking additional compensation and damages
as a result of the expropriation that occurred in 1986. Among
the suits filed is the current matter, which was filed as a petition
for a writ of mandamus in the Nineteenth Judicial District Court
in East Baton Rouge Parish on March 8, 1996. In the petition,
L & M named DOTD, its secretary, and its real estate
administrator as defendants. L & M later amended its petition
to add defendants and to seek additional relief, including
nullification of the expropriation judgments andjudgments
rendered in other suits filed by the Clarks andL & M in state
andfederal courts. Herein, the trial court, by judgments
rendered on October 31, 2005 and September 11,2006,
dismissed all of L & M’s claims. It is from these two
judgments that L & M now appeals.
Id. at 2 (emphasis added). The trial court had found no basis for
nullification of the prior stipulated agreement and it found res judicata
precluded the issues before it. Id.
The First Circuit affirmed the trial court. Id. First, the court found no
valid claim for absolute nullity. Id. It held that the pleadings did not support
any ground for a vice to nullify the stipulated agreement. Id. Second, the
court found no reason to overturn the trial court’s application of res judicata.
Id. We liberally quote from the opinion of the First Circuit:
The objection of res judicata raised by peremptory exception is
ordinarily based upon a final judgment between the parties; '
however, when parties put an end to a lawsuit by adjusting their
differences and entering into a written transaction or
compromise, that written instrument has the effect of a thing
8

adjudged between the parties. As the Joint Stipulation
constitutes such an agreement, the document is properly held to
bar any subsequent litigation as to the parties and the matters
addressed therein. Although L & M was not a party to the
litigation that provoked the creation of the Joint Stipulation, it
nevertheless, as quoted above, was a party to the Joint
Stipulation and as a consequence, L & M is bound by the
effects of that agreement, including the effect of res judicata.
As for the additional claims of alleged federal civil rights
violations raised by L & M in the instant matter, the record
reveals that these claims have also been previously considered
and adjudged in the U.S. District Court for the Western District
of Louisiana, under Civil Action Number 98-1753.
Hence, it is clear that L & M’s claims of federal civil rights
violations have not only been previously presented, but have
also been considered and adjudged.
Considering that L & M had an opportunity to present its
separate claims for compensation and damages relative to the
expropriation proceedings and had even previously recovered a
judgment in its favor on its claims for relocation costs, on our
review of the record before us, we find that no exceptional
circumstances exist that would warrant granting L & M relief
from the res judicata effect of prior judgments addressing the
same issues raised in this lawsuit.
Accordingly, we affirm the judgments appealed.
Id. at 6-8. The Louisiana Supreme Court subsequently denied writs.
In 2012, the United States Court of Appeals, Fifth Circuit, heard yet
another matter related to the instant litigation. See Clark v. Pena, 471 Fed.
Appx. 398 (5th Cir. 2012). In an unpublished opinion, the court denied
Clark’s attempt to declare void previous decisions by the federal district
court and its own imposition of sanctions. Id. The court liberally construed
Clark’s pro se brief and denied any relief. Id. We note that those sanctions
were related to multiple, frivolous appeals related to the same issues as the
case now before us.
In 2013, the Court of Appeal of Louisiana, First Circuit heard its
second appeal in this matter. See Clark v. State, Dept, of Transp. & Dev.,
9

2013- 0371 (La. App. 1 Cir. 11/8/2013), 2013 WL 5972214, writ denied,
2014-0814 (La. 6/13/14), 140 So. 3d 1191, cert denied, 135 S. Ct. 713
(2014). At issue were the same issues before it previously, which we note
are the same issues now before us. Clark sought the nullification of all
previous state and federal decisions against them and L&M. IdIn short
order, the First Circuit affirmed the trial court in an unpublished opinion and
found the following:
Our review of the record before us confirms these findings of
the United States Fifth Circuit that the prior federal judgments
were not only valid, but serve to bar further litigation based on
res judicata.
In regards to the state court proceedings, we likewise find that
Mr. Clark is seeking the same relief that was previously
rejected by the trial court in this matter and affirmed by our
court on appeal. Thus, considering the record before us, the
state law of res judicata as provided in La. R.S. 13:4231, and
jurisprudence interpreting the same, we find no error of law or
abuse of discretion by the trial court. Accordingly, we affirm
the trial court’s judgment by summary disposition^]1
Id. at 3-4. We note that not only did the Louisiana Supreme Court deny
writs, the Supreme Court of the United States denied Clark’s writ of
certiorari.
In review of the law and jurisprudence relating to res judicata and in
consideration of the lengthy procedural and case history of Clark and L&M
before this Court and several other state and federal appellate courts, we find
appellant’s arguments to be without merit. It is clear from the record that the
issues before us now have previously been adjudicated to finality.

In its previous 2008 opinion, the First Circuit explained that “[b]ecause L & M’s
petition in docket number 363,679[, the docket number from the original L&M petition in
Caddo Parish,] was filed before January 3, 1991, the preclusive effect of the judgments in
that suit is governed by the pre-revision law of res judicata.” Clark, 2008 WL 2065248 at
5.

10

Additionally, multiple state and federal courts have already held that res
judicata precludes relitigation of the same issues.
The joint stipulations and agreements entered into by Clark and the
State preclude the appellants from litigating the matters before us. Clark and
L&M were party to and joined in the stipulated agreement that they now
wish to have nullified. In our review of the record and the lengthy history of
this case we have found no vice or reason to nullify the agreements, The
agreements resolved the issues with regard to the expropriation of the three
lots of land and they were made final over thirty years ago. Therefore , res
judicata precludes Clark from litigating again those matters.
Furthermore, res judicata attaches and bars the petitions for nullity on
their face because several other appellate courts have already found and
decided such. Based on those previous decisions alone, res judicata attaches
and precludes the petitions. Therefore, res judicata not only attached to
preclude Clark from further litigation based on the stipulated agreements, it
also attached when the other state and federal appellate courts resolved the
issue earlier.
Additionally, the federal rights issues asserted by Clark and L&M
have no merit and are further barred by res judicata. It is clear that the
previous federal district and appellate court decisions have completely
resolved those issues, precluding Clark from further litigation of them.
Finally, we observe that the record unequivocally shows that Clark
and L&M are again attempting to retry that which has already been
adjudicated and which has already been dismissed through previous, nearly
identical res judicata opinions. Clark has, on multiple occasions, in front of
multiple courts, stated that he simply dislikes the previous outcomes and
11

wishes to retry the exact same issues. Clark and L&M, without any doubt,
have clearly had their day in court and have no meritorious grievance left
with the issues at hand.
We hold that res judicata applies to preclude Clark’s petition for
nullification. We further find no merits to reverse the trial court’s denial of
Clark’s motion for retrial. Clark presented neither new law or evidence nor
any compelling reason for a new trial. We also find that Clark’s ex parte
motion for relief, wherein Clark sought an order to force the State to amend
and file afresh all expropriation suits and deposit money into the court’s
registry, has no merit. The trial court was correct in denying all relief as to
that motion. Therefore, we affirm the trial court in whole, on all issues
presented.
CONCLUSION
The judgment of the trial court is AFFIRMED. All costs of this appeal
are assigned to the appellant.

12

STATE OF LOUISIANA
COURT OF APPEAL
FOR THE SECOND CIRCUIT

STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT,
Plaintiff-Appellee

NUMBER: 53,197-CA

versus
LARRY E. CLARK,
Defendant-Appellant
(consolidated with)
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT,
Plaintiff-Appellee

NUMBER: 53,198-CA

versus
LARRY E. CLARK,
Defendant-Appellant
(consolidated with)
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT,
Plaintiff-Appellee

NUMBER: 53,199-CA

versus
LARRY E. CLARK
Defendant-Appellant NUMBER: 53,200-CA
ORDER
The Court having considered Appellant’s Declinatory Exception For Lack
Of Subject Matter Jurisdiction, and Appellant’s Requesting For This Appeal Court
To Raise Lack Of Non-Joiner Of Indispensable Party On Its Own Motion , and
after considering the records, the evidence, and all the laws and prior opinions:
IT IS ORDERED That:
jsable Party, L & M is GRANTE
that L &

19

CTS, INC BE made a

D

986 filed consolidated expropriation suits;
IT IS FURTHER ORDERED: that Appellant’s Declinatory Exception for
Lack of

bject Matter be sustained and that this Court’s opiniol^ssueyin these
D APPEALS on January 15, 2020 is D«l?ed|^rrabso]

CONSOLID.

nullity, for lack of subject matter jurisdiction
IT IS ADDITIONALLY ORDERE

I^tXalTfour

its e

expropriation suits in these c?|jsolid!|te app^l\i^DegJl8red absolutely void, for
lack of subject matter jurisdiction?
FINALLY IT IS THE ORDOEDjJffat all judgments issued by the Trial
Court in 2018 for these four suits be rafrersetiand declared absolutely void for lack
arte Motion filed on April 23,

of subject matter jurisdiction; thjf^ppellant’s

2018 into three consolidation 986 expropriation suit:

April 23, 2018, be granted

in full, and the Apperfe is Ordered to perform all its requ*d duties as outlined in
Appellant’s E:
subject

rte Motion, and afterwards the Trial Court

Id have obtained

!ter jurisdiction in the three 1986 expropriation suits; ancLall costs and

nses be casted upon the Appellee.
day of

Shreveport, Louisiana, this

JUDGE, LOUISIANA SECO:

FILED
*
Sen gpeer mcqee, bhief deputt clerk
bddSt jf

-

20

CIRCUIT

I

020.

T COURT OF APPEAL

occ news ivcicasc \JjL-t iui <xuy v-/UiiLuiiciiLca anu/ui j-^isaciiis.

(Eaurf af
STATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION & DEVELOPMENT

af ^mxxnm
No. 2020-C-00528

VS.
LARRY E. CLARK, ET UX.
CAV
L & M HAIR CARE PRODUCTS, INC.
VS.

STATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION & DEVELOPMENT

IN RE: Larry E. Clark - Applicant Defendant; Applying for Reconsideration, Parish
of Caddo, 1st Judicial District Court Number(s) 325511, 325512, 328772 and
363679, Court of Appeal, Second Circuit, Number(s) 53,197-CA; 53,198-CA; 53199-CA; 53,200-CA;

June 01,2021
Application for reconsideration denied.
JDH
JLW
SJC
JTG
WJC
PDG

McCallum, J., recused.

Supreme Court of Louisiana
June 01,2021

j3

j

Chief Deputyjulerk of Court
For the Court

yrj

STATE OF LOUISIANA
COURT OF APPEAL
FOR THE SECOND CIRCUIT

STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT,
Plaintiff-Appellee NUMBER: 53,197-CA
versus
LARRY E. CLARK,
Defendant-Appellant
(consolidated with)
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT,
Plaintiff-Appellee

NUMBER: 53,198-CA

versus
LARRY E. CLARK,
Defendant-Appellant
(consolidated with)
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT,
Plaintiff-Appellee

NUMBER: 53,199-CA

versus
LARRY E. CLARK
Defendant-Appellant NUMBER: 53,200-CA
ORDER
The Court having considered Appellant’s Motion For The Full Second
Circuit Court of Appeal To Decides Appellant’s Declinatory Exception For Lack
Of Subject Matter Jurisdiction:

The Decli

UlS-D

.ear

ption For Lack Of Subject Matter Jurisdiction

Shreveport, Louisiana, this

day of

2020.

ra

JUDGE, LOUISIANA/ SjECOND CIRCUIT COURT OF APPEAL

,

FILED

20
CLERK
OEP
-•
..--A
COURT OF nPPl(i/ol-Gur')D CIRCUIT

STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
STATE OF LOUISIANA
DEPARTMENT OF
TRANSPORTATION &
DEVELOPMENT

r

C..

No. 53,197-CA
Consolidated with
Nos. 53,198-CA and
53,199-CA

J

l

VERSUS

}

Appealed from
Caddo Parish
Nos. 325511,325512
328772

LARRY E. CLARK, ET UX

Consolidated with
L & M HAIR CARE PRODUCTS,
INC.

No. 53,200-CA

VERSUS

Appealed fromS^P «
Caddo Parish
§
o po
No. 363679
o-n co

|

STATE OF LOUISIANA
DEPARTMENT OF
TRANSPORTATION &
DEVELOPMENT

T

1

n
m

Q
?

K3

l
i

t

i

!

Before the Court En Banc
ORDER

l

Considering applicant’s motion to recuse the panel which rendered the
original opinion herein from making any further decisions regarding these
consolidated appeals, this Court finds no valid basis stated for said recusal. La.
C.C.P. art. 151. The motion to recuse is hereby denied. La. C.C.P. arts. 154, 160.
Shreveport, Louisiana, this

day of

I

y

, 2020.
i

j?

Judge Stone did not
participate in this vote

\
{

/ \c

\

^

C

FILED:

A TRUE COPY-Attest

COURT

?

G"J

STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
Larry E. Clark
IN PROPER PERSON
P. 0. Box 76752
Atlanta GA 30358

REHEARING ACTION: February 28, 2020

O

Docket Number: 53,197-CA consolidated with 53,198-CA & 53,199-CA &
53,200-CA
STATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION AND DEVELOPMENT
VERSUS
LARRY E. CLARK, ET UX
-consolidated withSTATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION AND DEVELOPMENT
VERSUS
LARRY E. CLARK, ET UX
-consolidated withSTATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION AND DEVELOPMENT
VERSUS
LARRY E. CLARK, ET UX
-consolidated withL&M HAIR CARE PRODUCTS, INC.
VERSUS
STATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION AND DEVELOPMENT
BEFORE JUDGES:
Frances Jones Pitman
Jeanette Giddens Garrett
James Mark Stephens
Jay Bowen McCallum
Jefferson Rowe Thompson
As counsel of record in the captioned case, you are hereby notified that the application for

c

rehearing filed by Larry E. Clark has this day been

DENIED. MOTION FOR EN BANC CONSIDERATION DENIED.
EXHIBIT

FOR THE COURT
S
a

Clerk of Court

tl

cc:
Charles David McBride, Counsel for the Appellee
Andrew Gates Barry, Counsel for the Appellee
Terrence J. Donahue, Jr., Counsel for the Appellee

SECOND CIRCUIT COURT OF APPEAL
STATE OF LOUISIANA
Endorsed Filed

FeU. 2.P

, .0 2,0

LILLIAN EVANS RICHIE, CLERK OF C 3URT
A TRUE COPY-Attest

STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
Larry B. Clark
IN PROPER PERSON
P. 0. Box 76752
Atlanta GA 30358

c

REHEARING ACTION: February 28, 2020
Docket Number: 53,200-CA consolidated with 53,197-CA & 53,198 &
53,199-CA
L&M HAIR CARE PRODUCTS, INC.
VERSUS
STATE OF LOUISIANA DEPARTMENT OF
TRANSPORTATION AND DEVELOPMENT
BEFORE JUDGES:
Frances Jones Pitman
Jeanette Giddens Garrett
James Mark Stephens
Jay Bowen McCallum
Jefferson Rowe Thompson
As counsel of record in the captioned case, you are hereby notified that the application for
rehearing filed by Larry E. Clark has this day been

DENIED. MOTION FOR EN BANC CONSIDERATION DENIED.

FOR THE COURT

C

Clerk of Court
cc:

EXHIBIT

Charles David McBride, Counsel for the Appellee
Andrew Gates Barry, Counsel for the Appellee
Terrence J. Donahue, Jr., Counsel for the Appellee

i
s

P

SECOND CIRCUIT COURT OF APPEA1 .
STATE OF LOUISIANA
Endorsed Filed

peM. 2.E

LILLIAN EVANS RICHIE. CLERK OF
A TRUE COPY-Attest

>URT
N

I

*

u
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT

NUMBER: 325,511, DIV. A
1st JUDICIAL DISTRICT COURT

VERSUS
PARISH OF CADDO

i

LARRY CLARK, ETUX
STATE OF LOUISIANA
CONSOLIDATED WITH
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT

NUMBER: 325,512, DIV. A
1st JUDICIAL DISTRICT COURT

VERSUS
PARISH OF CADDO
LARRY CLARK, ET UX
STATE OF LOUISIANA
CONSOLIDATED WITH
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT

NUMBER: 328,772, DIV. A
1st JUDICIAL DISTRICT COURT

VERSUS
PARISH OF CADDO
LARRY CLARK, ETUX
STATE OF LOUISIANA
JUDGMENT
This matter came for hearing on February 5, 2018 on plaintiff-in-reconvention’s “Petition
for Absolute Nullity of the Judgment Rendered on June 24, 1988 in these Suits - Absolute Nullity
of the Judgment Issued on February 4. 1997 in Suit #363,679 - to Revoke the December 28, 1987
Joint Stipulation Filed in These Suits - and for Additional Compensation Due to the Immoval
Property Owner Result of the Expropriations” and defendant-in-reconvention’s Peremptory
Exceptions and Motion for Sanctions and Costs. Present in court were Larry E. Clark, in proper
person, and Andrew G. Barry and Charles D. McBride on behalf of State of Louisiana^epartment
EXHIBIT

of Transportation and Development.

1$

Considering the evidence and argument of both parties:
IT IS HEREBY ORDERED ADJUDGED AND DECREED that

T
letendant-in-

reconvention’s peremptory exception of res judicata is granted as to piaintiff-in reconvention’s
petition seeking to declare absolutely null the final judgments in these consolidated suits and suit
number 363,379, entitled L&M Hair Care Products, Inc. versus State of Louisiana, Dep^^nt^y
Transportation and,Development filed in the ls£ Judicial District Gourt-j-rPari-sh»-of°GaddoySt^e^of
Louisiana.

l

MIN
EXH
CP___MAIl____ N/J——
cc
FAX
REC
INDEX _
CERT
MAIL
W/D DOC

MAR 1 9 2018

PGS

cirpvtCF

$andy rotheu

FCOURT
DEPUTY
ADD0 PARISH
fsTr*

rl/1 »

I

I

IT IS FURTHER ORDERD ADJUDGED AND DECREED that plaintiff-in-reconvention’s
"Petition for Absolute Nullity of the Judgment Rendered on June 24, 1988 in these Suits Absolute Nullity of the Judgment Issued on February 4, 1997 in Suit #363,679 - to Revoke the
December 28, 1987 Joint Stipulation Filed in These Suits - and for Additional Compensation Due
to the Immoval Property Owner Result of the Expropriations” is denied.
JUDGMENT READ, RENDERED and SIGNED, in open Court in Shreveport, Louisiana
this the

JUDGE, 1st JUDICIALDISTRICT COURT

Respectfully submitted,
LOUISIANA DEPARTMENT OF
TRANSPORTATION & DEVELOPMENT
OFFICE OF THE GENERAL COUNSEL
Approved as to Form
Larry E. Clark

Andrew G. Barry, Bar #265
Charles D. McBride, Bar #23856
Post Office Box 94245
Baton Rouge, Louisiana 70804-9245
Telephone: (225) 242-4665
Facsimile: (225) 242-4690

A TRUE COPY-A7TTEST
DEPUTE CLERK, FIRST JUDICIAL
DISTRICT doURT. CADDO PARISH, LA

/

t
i

STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT

NUMBER: 325,511, DIV. A
1st JUDICIAL DISTRICT COURT

VERSUS
PARISH OF CADDO
LARRY E. CLARK, ET UX
STATE OF LOUISIANA
I

CONSOLIDATED WITH
STATE OF LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT

NUMBER: 325,512, DIV. A
1st JUDICIAL DISTRICT COURT

i

VERSUS
PARISH OF CADDO
LARRY E. CLARK, ET UX
STATE OF LOUISIANA
CONSOLIDATED WITH
STATE OF.LOUISIANA, DEPARTMENT
OF TRANSPORTATION & DEVELOPMENT

NUMBER: 328,772, DIV. A

tt
*

r.

1st JUDICIAL DISTRICT COURT
VERSUS

EXHIBIT

PARISH OF CADDO
LARRY E. CLARK, ET UX

JD

STATE OF LOUISIANA

3

JUDGMENT
This matter came for hearing on April 23, 2018 on Plaintiff-in-Reconvention’s (1,
“MOTION WITH ORDER FOR A NEW TRIAL; TO COLLATERAL ATTACK THE
ABSOLUTE VOID JUDGMENT IN SUIT # 363,679; AND TO VOID THIS COURT’S RULING
GRANTING RES JUDICATA ON JUDGMENT IN 363,679,” and Plaintiff-in-Reconvention’s (2)
“AN AMENDED AND SUPPLEMENTAL MOTION WITH ORDER FOR A NEW TRIAL; TO
COLLATERAL ATTACK THE ABSOLUTE VOID JUDGMENT IN SUIT #363,679; AND TO
VOID THIS COURT’S RULING GRANTING RES JUDICATA ON JUDGEMENT IN 363,679,”
and Plaintiff-in-Reconvention’s (3) “A SECOND AMENDED AND SUPPLEMENTAL MOTION
WITH ORDER FOR A NEW TRIAL; TO COLLATERAL ATTACK THE ABSOLUTE VOID
JUDGMENT IN SUIT #363,679; AND TO VOID THIS COURT’S RULING GRANTING RES
JUDICATA ON JUDGEMENT IN 363,679,” and Plaintiff-in-Reconvention’s (4) “MOTION TO
DECLARE UNCONSTITUTIONAL UNDER THE CONSTITUTION OF THE UNITED
STATES AS WELL AS UNDER THE CONSTITUTION OF THE STATE OF LOUISIANA A
FEBRUARY 05, 2018 RULING ORALLY ISSUED BY THIS COURT GRANTING APEREMPTORY EXCEPTION OF RES JUDICATA BASED UPON AN A
MIN
EXH
PGS
rr I r.P___MAIL_L N/J------FAX
REC
INDEX _
CERT
MAIL.
W/D DOC
SERVICE

ID

DEPUTY CLERK Of COURT
CADDO PARISH

FEBRUARY 4, 1997 JUDGMENT IN SUIT #363,679, AS THE RULING DENIES DUE
PROCESS

AND

OTHER RIGHTS

GRANTED BY THE FEDERAL AND STATE

CONSTITUTION AND THE RULING ALLOWS THE SATATE TO DENY AFRICAN
AMERICANS AND AN AFRICAN AMERICAN CORPORATION ALL THEIR RIGHTS.”
i

Present in court were Larry E. Clark, in proper person, and Andrew G. Barry and Charles
D. McBride on behalf of State of Louisiana, Department of Transportation and Development.
Considering the evidence and argument of both parties:
IT IS HEREBY ORDERED ADJUDGED AND DECREED that the Judgment rendered by
this court on March 21, 2018 is affirmed. Said Judgment granted Defendant-in-Reconvention’s
preemptory exception of res judicata as to Plaintiff-in Reconvention’s petition seeking to declare
absolutely null the final judgments in these consolidated suits and suit number 363,379. Therefore,
Plaintiff-in-Reconvention’s aforementioned Motions (1), (2), and (3) are denied.
IT IS FURTHER ORDERD ADJUDGED AND DECREED that the aforementioned
Motion (4) is Lis pendens, as this Motion, or one containing similar constitutional issues, is
currently pending in the 19,h JDC in suit titled L&M Hair Care Products, Inc. et al vs. State of
Louisiana Department of Transportation and Development, et al (Docket Number: Civ #425.690D). Therefore, Plaintiff-in Reconvention’s aforementioned Motion (4) is denied.
JUDGM ;T READ, RENDERED and SIGNED, in open Court in Shreveport, Louisiana
v
this the/Q^g ' day of
, 2018.

JUDGE,

j ST

JUDICIAL DISTRICT COURT

Respectfully submitted,
LOUISIANA DEPARTMENT OF
TRANSPORTATION & DEVELOPMENT
OFFICE OF THE GENERAL COUNSEL

n

(

'LdriVE. Clark

Andrew G. Barry, Bar #2659^ z
Charles D. McBride, Bar #21856
Post Office Box 94245
Baton Rouge, Louisiana 70804-9245
Telephone: (225) 242-4665
Facsimile: (225) 242-4690

RUE COPY - ATTEST
DEPUTY OfL;
DISTRICT CC

(, FIRST JUDICIAL
T, CADDO PARISH. LA

NUMBER:363,679, DIV. A

L & M HAIR PRODUCTS, INC., ET AL

1st JUDICIAL DISTRICT COURT
VERSUS

PARISH OF CADDO

STATE OF LOUISIANA, DEPARTMENT OF
TRANSPORTATION AND DEVELOPMENT

i

STATE OF LOUISIANA

I" I

JUDGMENT

This matter came for hearing on April 23, 2018 on Plaintiff-in-Reconvention!s
“PETITION FOR ABSOLUTE NULLITY OF THE FINAL JUDGMENT ISSUED BY THIS
COURT ON FEBRUARY 4, 1997, AND FOR THE ABSOLUTE NULLITY OF THE OPINION
ISSUED ON DECEMBER 10, 1997 BY THE LOUISIANA SECOND CIRCUIT COURT OF
APPEAL THAT AFFIRMED THIS COURT FEBRUARY 4, 1997 FINAL JUDGMENT,” and
!

“

Defendant-in-Reconventions PREMPTORY EXCEPTIONS AND MOTION FOR SANCTIONS
AND

COSTS

ON

BEHALF

OF' STATE

OF

LOUISIANA,

DEPARTMENT

OF

m:
UK

TRANSPORTATION AND DEVELOPMENT.
Present in court were Larry E. Clark, in proper person, and Andrew G. Barry and Charles

ft
I

D. McBride on behalf of State of Louisiana, Department of Transportation and Development.
Considering the evidence and argument of both parties:

I

IT IS HEREBY ORDERED ADJUDGED AND DECREED that the Judgment rendered by
this court on March 21, 2018 is affirmed. Said Judgment granted Defendant-in-Reconvention’s
preemptory exception of res judicata as to Plaintiff-in-Reconvention’s petition seeking to declare
absolutely null the final judgment in suit number 363,679.
IT IS FURTHER ORDERED ADJUDGED AND DECREED that Plaintiff-inReconvention’s PETITION FOR ABSOLUTE NULLITY OF THE FINAL JUDGMENT ISSUED
BY THIS COURT ON FEBRUARY 4, 1997, AND FOR THE ABSOLUTE NULLITY OF THE
OPINION ISSUED ON DECEMBER 10, 1997 BY THE LOUISIANA SECOND CIRCUIT
COURT OF APPEAL THAT AFFIRMED THIS COURT FEBRUARY 4, 1997 ^N^L
JUDGMENT is denied.

PGS

^ £XH_—~

MIN

lee

Nfl----

M

1

X

(2318

------

CBM*

• - avice

LEL

B5=3

lf?l 5

r

DEP' ki CkGAK OF COURT

caodo parish

/

*

JUDGMENT READ, RENDERED and SIGNED, in open Court in Shreveport, Louisiana
this the

l day of

<

,2018.

JUDGE, 1st JUDICIAL DISTRICT COURT
1

Respectfully submitted,
LOUISIANA DEPARTMENT OF
TRANSPORTATION & DEVELOPMENT
OFFICE OF THE GENERAL COUNSEL
Approved as to Form OG
Wrry^E.garp

i

i

i

k
£
Sr*

Andrew G. Barry, Bar #2659v
Charles D. McBride, Bar #23856
Post Office Box 94245
Baton Rouge, Louisiana 70804-9245
Telephone: (225) 242-4665
Facsimile: (225) 242-4690

Additional material
from this filing is
available in the
Clerk's Office.

